BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Reply Brief
for Petitioners in 20-843, New York State Rifle & Pistol
Association, Inc., Robert Nash, Brandon Koch v. Kevin
P. Bruen, in His Official Capacity as Acting
Superintendent of New York State Police, Richard J.
McNally, Jr., in His Official Capacity as Justice of the
New York Supreme Court, Third Judicial District, and
Licensing Officer for Rensselaer County, were sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day service and e-mail to the
following parties listed below, this 14th day of Octa ber,
2021:
Paul D. Clement
Counsel of Record
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
pa ul.clement@kirkland.com

Counsel for Petitioners
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
Barbara. underwood@ag.ny.gov

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
, www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Brian H. Fletcher
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for the United States

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 14, 2021.

~Qump~M

Heather Campbeli
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

(jc:G~

/'11 ~ I

d;i,_ <3. ~

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, Stale of Ohio
My Commission Expires
February 14, 2023

